No. 19-67

 

In THE
Supreme Court of the United States

UNITED STATES OF AMERICA, PETITIONER,
Vv

EVELYN SINENENG-SMITH

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF IMMIGRATION REPRESENTATIVES AND
ORGANIZATIONS AS AMICI CURIAE IN SUPPORT OF
RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,989 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2020.

Ck,
Colin Casey en

Wilson-Epes Printing Co., Inc.
